No. 20A108

In the Supreme Court of the United States
STATE OF LOUISIANA,
v.

Applicant,

TAZIN ARDELL HILL
Respondent.
REPLY BRIEF IN SUPPORT OF EMERGENCY APPLICATION FOR A STAY
PENDING DISPOSITION OF PETITION FOR CERTIORARI TO THE LOUISIANA
SUPREME COURT
To the Honorable Samuel A. Alito
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Fifth Circuit

PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Reply
Brief was served on each party, or that party’s counsel, as listed below, on December
11, 2020. Service was made by United States mail—with first-class postage prepaid.
Richard Bourke
Michael Gregory
Louisiana Capital Assistance Center
636 Baronne Street
New Orleans, LA 70113
I declare under penalty of perjury that the following is true and correct.

Executed on December 18, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

